Appendix C
Nebraska Revised Statute § 29-2520 (Reissue 2016)
Nebraska Revised Statute § 29-2521 (Reissue 2016)
Nebraska Revised Statute § 29-2523 (Reissue 2016)
Nebraska Revised Statute § 29-2261 (Reissue 2016)

29-2520. Aggravation hearing; procedure, NE ST § 29-2520

^i

KeyCite Yellow Flag - Negative Trestment

Unconstitutional or PreemptedValidity Called into Doubt by Ring v, ArlzoDa, U.S., June 24,2002

West's Revised Statutes of Nebraska Annotated
Chapter 29. Criminal Procedure
Article 25. Special Procedure in Cases of Homicide
Neb.Rev.St. § 29-2520

29-2520. Aggravation hearing; procedure
Currentness

(l)Wheneverany person is found guilty of a violation of section 28-303 and the information contains a notice of aggravation
as provided in section 29-1603, the district court shall, as soon as practicable, fix a date for an aggravation hearing to determine
the alleged aggravating circumstances. If no notice of aggravatioa has been filed, the district court shall enter a sentence of
life imprisonment.

(2) Unless the defendant waives his or her right to a jury determmatlon of the alleged aggravating circumstances, such
determination shall be made by:

(a) The Jury which determined the defendant's guilt; or

(b)Ajury impaneled for purposes of the detennination of the alleged aggravating circumstances if:

(i) The defendant waived his or her right to a jury at the trial of guilt and either was convicted before a judge or was
convicted on a plea of guilty or nolo contendere; or

(ii) The jury which determined the defendant's guilt has been discharged.
A jury required by subdivision (2)(b) of this section shall be impaneled in the manner provided in sections 29-2004 to 29-201 0.

(3) The defendant may waive his or her right to a jury detemiination of the alleged aggravating circumstances. The court shall
accept the waiver after determining that it is made freely, voluntarily, and knowingly. If the defendant waives his or her right
to a jury determination of the alleged aggravating circumstances, such determination shall be made by a panel of judges as a
part of the sentencing determination proceeding as provided in section 29-2521.

(4)(a) At an aggravation hearing before a jury for the determination of the alleged aggravating circumstances) the state may
present evidence as to the existence of the aggravating circumstances alleged in the information. The Nebraska Evidence Rules

shall apply at tlie aggravation hearing.

»TLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

29-2520. Aggravation hearing; procedure, NE ST § 29-2520

(b) Alternate jurors who would otherwise be discharged upon final submission of the cause to the jury shall be retained
during the deliberation of the defendant's guilt but shall not participate in such deliberations. Such alternate jurors shall serve
during the aggravation hearing as provided m section 29-2004 but shall not participate in the jury's deliberations -under this
subsection.

(c) If the jury serving at the aggravation hearing is the jury which determined the defendant's guilt, the jury may consider
evidencereceivedatthetrialof guilt for purposes of reaching its verdict as to the existence or nonexistence of aggravating
circumstances in addition to the evidence received at the aggravation hearing.

(d) After the presentation and receipt of evidence at the aggravation hearing, the state and the defendant or his or her counsel
may present arguments before the jury as to the existence or nonexistence of the alleged aggravating circumstances.

(e) The court shall instruct the members ofthejury as to their duty as jurors, the definitions ofthe aggravating circumstances
alleged in the information, and the state's burden to prove the existence of each aggravating ch-cumstance alleged m the
information beyond a reasonable doubt.

(f) The jury at the aggravadon hearing shall deliberate and return a verdict as to the existence or nonexistence of each alleged
aggravating ckcumstance. Each aggravating circumstance sliall be proved beyond a reasonable doubt. Each verdict with
respect to each alleged aggravating circumstance shall be unanimous. If the jury is unable to reach a unanimous verdict with
respect to an aggravating circumstance, such aggravating circumstance shall not be weighed in the sentencing determmatiou

proceeding as provided iu section 29-2521.

(g) Upon rendering its verdict as to the determination of the aggravating circumstances, the jury shall be discharged.

(h) If no aggravating circumstance is found to exist, the court shall enter a sentence of life imprisonment. If one or more
aggravating circumstances are found to exist, the court sliall convene a panel of three judges to hold a hearing to receive

evidence of mitigation and sentence excesslveness or disproportionality as provided in subsection (3) of section 29-2521.

Credits
Laws 1973, LB 268, § 5; Laws 1978, LB 748, § 22; Laws 2002, 3rd Sp. Sess., LB 1, § 11; Laws 2011, LB 12, § 3, eff. Aug.
27,2011.

Neb. Rev. St. § 29-2520, NE ST § 29-2520
Current through legislation effective March 26, 2020, of the 2nd Regular Session of the 106th Legislature (2020).
End of Document © 2020 Thomson Reuters. No dasm to original U.S. Oovcmment Works.

WBSTLAW © 2020 Thomson Reuters. No ciait^ to original U.S. Government Works.

29-2521. Sentencing determination proceeding, NE ST § 29-2521

L?f

KeyCite Yellow Flag - Negative Treatment

Proposed Legislation

West's Revised Statutes of Nebraska Annotated
Chapter 29. Criminal Procedure
Article 25. Special Procedure in Cases of Homicide
Neb.Rev.St § 29-2521
29-2521- Sentencing determination proceeding
Currentness

(1) When a person has been found guilty of murder in the first degree and (a) a jury renders a verdict finding the existence of
one or more aggravating circumstances as provided m section 29-2520 or (b)(i) the information contains a notice ofaggravation
as provided in section 29- 1603 and (ii) such person waives his or her right to a jury determination of the alleged aggravating
circumstances, tlie sentence of such person shall be determined by:

(a) A panel' of three judges, includmg the judge who presided at the trial of guilt or who accepted the plea and two additional
active district court judges named at random by the Chief Justice of the Supreme Court. The Judge who presided at the trial
of guilt or who accepted the plea shall act as the presiding judge for the sentencing determination proceeding under this
section; or

(b) If the Chief Justice of the Supreme Court has determined that the judge who presided at the trial of guilt or who accepted
the plea is disabled or disqualified after receiving a suggestion of such disability or disqualification ftom the clerk of the
court m which the finding of guilty was entered, a panel of three active disbict court judges named at random by the Chief
Justice of the Supreme Court. The Chief Justice of the Supreme Court shall name one member of the panel at random to act
as the presiding judge for the sentencing determination proceeding under this section.

(2) In the sentencing determination proceeding before a panel of judges -when the right to a jury determination of the alleged
aggravating ch-cumstaiices has been waived, the panel shall, as soon as practicable after receipt of the written report resulting

from the presentence investigation ordered as provided in section 29-2261, hold a hearing. At such hearing, evidence may
be presented as to any matter that the presiding judge deems relevant to sentence and shall include matters relating to the
aggravating ckcumstances alleged in the information, to any of the mitigating circumstances set forth In section 29-2523,and
to sentence excessiveness or disproportionality. The Nebraska Evidence Rules shall apply to evidence relating to aggravating
circumstances. Each aggravating circumstance shall be proved beyond a reasonable doubt. Any evidence at the sentencing

determination proceeding which the presidmg judge deems to have probative value may be received. The state and the defendant
or his or her counsel shall be permitted to present argument for or against sentence of death. The presiding judge shall set
forth the general order of procedure at the outset of tlie sentencing determination proceeding. The panel shall make written
findings of fact based upon the trial of guilt and the sentencing determination proceeding, identifying which, if any, of the
alleged aggravating circumstances have been proven to exist beyond a reasonable doubt. Each finding of fact with respect to
each alleged aggravating circumstance shall be unanimous. If the panel is unable to reach a unanimous fmding of fact with
respect to an aggravating circumstance, such aggravating circumstance shall not be weighed in the sentencing determination

proceeding. After the presentation and receipt of evidence and argument, the panel shall determine an appropriate sentence as
provided in section 29-2522.

WE3TLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

29-2521. Sentencing determination proceeding, NE ST § 29-2521

(3) When a jury renders a verdict finding the existence of one or more aggravating circumstances as provided in section 29-2520,
the panel of judges shall, as soon as practicable after receipt of the written report resulting from the presentence investigation
ordered as provided in section 29-2261, hold a hearing to receive evidence of mitigation and sentence excessiveness or
disproportionality. Evidence may be presented as to any matter that the presiding judge deems relevant to (a) mitigation,
including, but not limited to, the mitigating circumstances set forth in section 29-2523, and (b) sentence excessiveness or
disproportionality as provided in subdivision (3) of section 29-2522. Any such evidence which tbe presiding judge deems to
have probative value may be received. The state and the defendant and his or her counsel shall be permitted to present argument

for or against sentence of death. The presiding judge shall set forth the general order of procedure at the outset of the sentencing
determination proceeding. After the presentation and receipt of evidence and argument, the panel shall determine an appropriate
sentence as provided in section 29-2522.

Credits
Laws 1973, LB 268, § 6; Laws 2002, 3rd Sp. Sess., LB 1, § 12.

Neb. Rev. St. § 29-2521, NE ST § 29-2521
CuiTent through legislation effective March 26, 2020, of the 2nd Regular Session of the 106th Legislature (2020).
End of Document © 2020 Thomson Reuters. No claim to orisinal U.S. Government Works.

WESTLAW © 2020 Thomson Reuters, No claim to original U.S. Govemment Works.

29-2523. Aggravating and mitigating circumstances, NE ST § 29-2523

^

KeyCite Yellow Flag - Negative Treatment

Unconstitutionai or PreemptedPrior Version Held Unconstitutional by Palmer v. Clarke, D.Meb,, Oct. 09, 2003

West's Revised Statutes of Nebraska Annotated
Chapter 29. Criminal Procedure
Article 25. Special Procedure in Cases of Homicide
Neb.Rev.St. § 29-2523

29-2523- Aggravating and mitigating circumstances
Cun'entness

The aggravating and mitigating circumstances referred to in sections 29-2519 to 29-2524 shall be as follows:

(1) Aggravating Circumstances:

(a) The offender was previously convicted of another murder or a crime involving the use or threat of violence to the
person, or has a substantial prior history of serious assaultive or terrorizing criminal activity;

(b) The murder was committed in an effort to conceal the commission of a crime, or to conceal the identity of the perpetrator
of such crime;

(c) The murder was committed for hire, or for pecuniary gain, or the defendant hired aaother to commit the murder for
the defendant;

(d) The murder was especially heinous, atrocious, cruel, or manifested exceptional depravity by ordinary standards of
morality and intelligence;

(e) At the time the murder was committed, the offender also committed another murder;

(f) The offender knowingly created a great risk of death to at least several persons;

(g) The victim was a public seivant having lawiEul custody of the offender or another in the lawful performance of his
or her official duties and the offender knew or should have known that the victim was a public servant performing his
or her official duties;

(h) The murder was committed knowingly to disrupt or hinder the lawful exercise of any govenimental flmctlou or the
enforcement of the laws; or

WESTLAW © 2020 Thomson Reuters. No ciaim to original LLS. Government Works.

29-2523. Aggravating and mitigating circumstances, ME ST § 29-2523

(i) The victim was a law enforcement officer engaged in the lawful performance of his or her official duties as a law
enforcement officer and the offender knew or reasonably should have known that the victim was a law enforcement officer.

(2) Mitigating Circumstances:

(a) The offender has no significant history of prior criminal activity;

(b) The offender acted under unusual pressures or influences or under the domination of another person,

(c) The crime was committed while the offender was under the influence of extreme mental or emotional disturbance;

(d) The age of the defendant at the time of the crime;

(e) The offender was an accomplice in the crime committed by another person and his or her participation was relatively
minor;

(f) The victim was a participant in the defendant's conduct or consented to the act; or

(g) At the time of the crime, the capacity of the defendant to appreciate the wrongfulness of his or her conduct or to conform
his or her conduct to the requirements of law was impau-ed as a result of mental illness, mental defect, or intoxication.

Credits
Laws 1973, LB 268, § 8; Laws 1998, LB 422, § 1; Laws 2002, 3rd Sp. Sess., LB !,.§ 15.

Neb. Rev. St. § 29-2523, NE ST § 29-2523
Current through legislation effective March 26, 2020, of the 2nd Regular Session of the 106th Legislature (2020).
End of Document © 2020 Thomson Reuters. No claim to ongiiial U.S. Govenunent Works.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

29-2261, Presentence investigation, when; contents; psychiatric,.., NE ST § 29-2261

^

KeyCite Yellow Flag - Negative Treatment

Proposed Legislation

West's Revised Statutes of Nebraska Annotated
Chapter 29. Crimmal Procedure
Article 22. Judgment on Conviction

(c) Probation
Neb.Rev.St § 29-2261
29-2261. Presentence investigation, wl'ien; contents, psychiatric
examination; persons having access to records; reports authorized
Effective: July 19, 20i8
Currentness

(1) Unless it is impractical to do so, when an offender has been convicted of a felony other than murder in the first degree, the
court shall not impose sentence without first ordering apresentence mvestigation of the offender and according due consideration
to a written report of such mvestigation. When an offender has been convicted of murder in. the first degree and (a) a jury
renders a verdict finding the existence of one or more aggravating circumstances as provided in section 29-2520 or (b)(i) the
information contains a notice of aggravation as provided in section 29-1603 and (ii) the offender waives lus or her right to a jury
determination of the alleged aggravating circumstaaces, the court shall not commence the sentencing determination proceeding
as provided in section 29-2521 without first ordering a presentence investigation of the offender and according due consideration
to a written report of such investigation.

(2) A court may order a presentence investigation in any case, except in cases in. which an offender has been convicted of a

Class IIIA misdemeanor, a Class IV misdemeanor, a Class V misdemeanor, a traffic infraction, or any corresponding city or
village ordinance.

(3) The presentence investigation and report shall include, -when available, an analysis of tlie circumstances attending the
commission of the crime, the offender's history of delinquency or criminality, physical and mental condition, family situation
and backgroimd, economic status, education, occupation, and personal habits, and any other matters that the probation officer

deems relevant or the court directs to be included. All local and state police agencies and Department of Correctional Services
adult correctional facilities shall furnish to the probation officer copies of such criminal records, in any such case referred to
the probation officer by the court of proper jurisdiction, as the probation officer shall require without cost to the court or the
probation officer.

Such investigation shall also include:

(a) Any written statements submitted to the county attorney by a victim; and

(b) Any written statements submitted to the probation officer by a victim.

(4) If there are no written statements submitted to tlie probation officer, he or she shall certify to the court that:

WE5TLAW © 2020 Thomson Reuters, No claim to original U.S. Government Works. 1

29-2261. Presentence investigation, when; contents; psychiatric..., NE ST g 29-2261

(a) He or she has attempted to contact the victim; and

(b) If he or she has contacted the victim, such officer offered to accept the written statements of the victim or to reduce such
victim's oral statements to writing.

For purposes of subsections (3) and (4) of this section, the term victim shall be as defmedin section 29-119.

(5) Before imposing sentence, the court may order the offender to submit to psychtalric observation and examination for a
period of not exceeding sixty days or such longer period as the court determines to be necessary for that purpose. The offender
may be remanded for this purpose to any available clinic or mental hospital, or the court may appoint a qualified psychiatrist
to make the examination. The report of the examination shall be submitted to the court

(6)(a) Any presentence report, substance abuse evaluation, or psychiatric examination shall be privileged and shall not be
disclosed directly or indirectly to anyone otlier than a judge; probation officers to whom an. offender's file is duly transferred;
the probation administrator or his or her designee; alcohol and drug counselors, mental health practitioners, psychiatrists, and
psychologists licensed or certified under the Uniform Credentialing Act to conduct substance abuse evaluations and treatment;
or others entitled by law to receive such information, including persomiel and mental health professionals for the Nebraska State
Patrol specifically assigned to sex offender regish-ation and commimity notification for the sole purpose of using such report,
evaluation, or examination for assessing risk and for community notification of registered sex offenders.

(b) For purposes of this subsection, mental health professional means (i) a practicing physician licensed to practice medicine
in this state under the Medicine aud Surgery Practice Act, (ii) a practicing psychologist licensed to engage in the practice
of psychology in this state as provided in section 38-3 111 or as provided under similar provisions of the Psychology
Interjurisdictional Compact, or (iii) a practicmg mental health professional licensed or certified in this state as provided in
the Mental Health Practice Act.

(7) The court shall permit inspection of the presentence report, substance abuse evaluation, or psychiatric examination or parts
of fhe report, evaluation, or examination, as determined by the court, by the prosecutiug attorney and defense counsel. Beginuing

July 1, 2016, such inspection. shall be by elecb'onic access only unless the court determines such access is not available to the
prosecuting attorney or defense counsel. The State Court Administrator shall determine and develop the means of electronic
access to such presenteuce reports, evaluations, and examinations. Upon application by tlie prosecuting attorney or defense
counsel, the court may order that addresses, telephone numbers, and other contact information for victims or witnesses named
in the report, evaluation, or examination be redacted upon a showing by a preponderance of the evidence that such redaction is
warranted in the interests of public safety. The court may permit inspection of the presentence report, substance abuse evaluation,
or psychiatric examination or examination of parts of the report, evaluation, or examination by any other person having a proper

interest therein whenever the court finds it is m the best interest of a particular offender. The court may allow fair opportunity
for an offender to provide additional information for the court's consideration.

(8) If an offender is sentenced to imprisonment, a copy of the report ofanypreseutence investigation, substance abuse evaluation,
or psychiatric examination shall be transmitted immediately to the Department of Correctional Services. Upon request, the
Board of Parole or the Division of Parole Supervision may receive a copy of the report from the department,

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works. 2

8

29-2261. Presentence investigation, when; contents; psychiatric..., NE ST § 29-2261

(9) Notwithstanding subsections (6) and (7) of this section, the Supreme Court or an agent of the Supreme Court acting under
the direction and supervision of the Chief Justice shall have access to psychiatric examinations, substance abuse evaluations,
and presentence investigations and reports for researcli purposes. The Supreme Court and its agent shall treat such information
as confidential, and nothing identifying any individual shall be released.

Credits

Laws 1971, LB 680, § 16; Laws 1974, LB 723, § 1; Laws 1983, LB 78, § 4; Laws 2000, LB 1008, § I; Laws 2002, LB 564,
§ 1; Laws 2002, 3rd Sp. Sess., LB 1, § 9; Laws 2003, LB 46, § 8; Laws 2004, LB 1207, § 17; Laws 2007, LB 463, § 1129;
Laws 2011, LB 390, § 3, eff. July 1, 2011; Laws 2015, LB 504, § 1, eff. Aug. 30, 2015; Laws 2018, LB 841, § 3, eff. July 19,
2018; Laws 2018, LB 1034, § 3, eff. July 19, 2018.

Neb. Rev. St, § 29-2261, NE ST § 29-2261
Cun-ent through legislation effective March 26, 2020, of the 2nd Regular Session of the 106th Legislature (2020).
End of.Documettt • © 2020 Thomson Ryutcrs. No claim to uriHinal U.S. Guvenmwnt Wffl'ks.

WBSTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

